OIG Audit Report GR-70-06-005

Compliance with Standards Governing Combined DNA Index System Activities at the Philadelphia Police Department Forensic Science Division, Philadelphia, Pennsylvania

Audit Report GR-70-06-005


March 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Philadelphia Police Department, Forensic Sciences Division (Laboratory).1   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBIs authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nations DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.
The FBI provides CODIS software without charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratorys profiles have to be uploaded to the NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize the NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratorys DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the Laboratory complied with the standards governing CODIS activities for the areas we tested, with one exception.  Specifically, we tested 50 forensic profiles and noted the following.

For one forensic profile we tested, we could not determine if each of the alleles included were attributed to the perpetrator because the profile was a mixture.3   The Laboratory agreed with our assessment and took corrective action by removing this profile from the NDIS.
In another 29 cases we tested, the re was not enough casework information available for us to determine if the Laboratory eliminated from the NDIS the forensic profiles of persons who may have legitimately left DNA material at the crime scene.  
One profile from the 29 cases we tested was incomplete because the Laboratory did not upload into the NDIS all of the loci for which they obtained results. 

Our recommendations to improve the Laboratorys compliance with NDIS standards are discussed in detail in the Findings and Recommendations section of the report.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable.  In addition, we requested a written response to a draft of our audit report from the Laboratory and the FBI.  In its response, the Laboratory agreed with our findings and recommendations.  The Laboratory:  (1) revised its internal control procedures for obtaining casework information from law enforcement and medical personnel, (2) requested additional casework information from law enforcement for 43 of the cases we tested and (3) noted that they modified one profile during our audit fieldwork to include all of the required loci.  In its response the FBI said it was reviewing both recommendations and requesting additional information from the Laboratory.  The Laboratorys and the FBIs comments are included in the report as Appendices III and IV, respectively.



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to the NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.
In DNA analysis, the term alleles refers to one of two or more alternative forms of a gene or genetic marker that occurs at a particular locus.